        OFFICE OF INSPECTOR GENERAL


                                 Catalyst for Improving the Environment



Audit Report




       Access Controls for Office of
       Enforcement and Compliance Assurance
       Systems Need Improvement

       Report No. 2004-P-00015


       April 26, 2004
Report Contributors:               Edward Densmore
                                   Teresa Richardson
                                   Debbie Hunter
                                   Martin Bardak
                                   Bill Coker




Abbreviations

EPA          Environmental Protection Agency

FTTS         Federal Insecticide, Fungicide, and Rodenticide Act/

             Toxic Substance Control Act Tracking System
ICIS         Integrated Compliance Information System
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OMB          Office of Management and Budget
SSTS         Section Seven Tracking System
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                         April 26, 2004

MEMORANDUM

SUBJECT:	           Access Controls for Office of Enforcement and Compliance Assurance
                    Systems Need Improvement
                    Report No. 2004-P-00015

FROM:	              Patricia H. Hill, Director
                    Business Systems Audits (2421T)

TO:	                Michael M. Stahl, Director
                    Office of Compliance
                    Office of Enforcement and Compliance Assurance (2221A)


This is a our final report regarding implementation of authentication and identification controls.
This audit report contains a finding that describes a problem the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA) has identified and the corrective
action the OIG recommends. This report represents the opinion of the OIG, and the finding
contained in this audit report does not necessarily represent the final EPA position. Final
determinations on matters in this audit report will be made by EPA managers in accordance with
established EPA audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to the
finding and recommendation presented in this audit report within 90 days of the report date.
You should include a corrective action plan for agreed upon actions, including milestone dates.
We have no objection to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig. If you or your staff have any questions
regarding this report, please contact me at (202) 566-0894 or the Assignment Manager,
Ed Densmore, at (202) 566-2565.




                                                1
Purpose

On September 30, 2003, we issued Report No. 2003-P-00017, EPA’s Computer Security Self-
Assessment Process Needs Improvement, which identified weaknesses related to the EPA’s self-
assessment process and made recommendations to the Office of Environmental Information’s
Director for Technology, Operations and Planning. Among other things, the audit assessed
whether: (1) computer security self-assessments were accurate and complete; (2) EPA identified
all major applications; and (3) major application systems used authentication and identification
controls to protect against unauthorized access and misuse.

During the prior audit, we had identified some access control weaknesses specific to three Office
of Enforcement and Compliance Assurance (OECA) systems. This additional report addresses
those OECA system-specific weaknesses we found during our review.


Background

The Federal Information Security Management Act and its predecessor, the Government
Information Security Reform Act, require all Federal agencies to conduct annual reviews of their
security program and to report the results of those assessments to the Office of Management and
Budget (OMB). OMB reviews the assessment results to determine how well agencies
implemented security requirements.

The OECA systems we reviewed are critical to EPA’s enforcement and compliance activities of
the Agency. These systems are:

•	 Federal Insecticide, Fungicide, and Rodenticide Act/Toxic Substance Control Act
   Tracking System (FTTS). FTTS supports the day-to-day tracking of inspections for
   pesticides, as well as compliance and enforcement under the applicable EPA laws.

•	 Section Seven Tracking System (SSTS). Similar to FTTS, SSTS supports the pesticides
   program by tracking pesticide-producing establishments, registration records of new
   establishments, and the types and amounts of pesticides produced at each establishment.
   This also contains Confidential Business Information, such as the addresses of the pesticide-
   producing establishments.

•	 Integrated Compliance Information System (ICIS). ICIS integrates the national
   compliance and enforcement data from numerous individual systems. This system is
   expected to eventually integrate data regarding all media that EPA regulates (e.g., air, toxics,
   pesticides, and hazardous waste).




                                                 2
Scope and Methodology

We conducted audit field work at EPA Headquarters and Regions 1, 2, 3, 5, and 6. To
accomplish this audit objective, we used a variety of criteria, including:

•	 OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources.
•	 National Institute of Standards and Technology Special Publication 800-26,
   Security Self-Assessment Guide for Information Technology Systems.
•	 EPA Directive 2195A1, Information Security Manual.

We conducted this audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We reviewed system access listings and verified that
users still needed access to the system. We also tested their respective levels of access to ensure
they were appropriate. In addition, we reviewed system coordinator/administrator listings to
determine whether adequate personnel had been assigned to ensure the availability of the
systems to users.


Prior Audit Coverage

•	 EPA OIG Report No. 2003-P-00017, EPA’s Computer Security Self-Assessment Process
   Needs Improvement, dated September 30, 2003: This report recommended implementing a
   systematic monitoring and evaluation program to increase the reliance management can place
   on the information technology security data it collects.

•	 EPA OIG Report No. 2002-S-00017, Government Information Security Reform Act: Status
   of EPA Computer Security Program, dated September 16, 2002: This report noted that
   management must continue to seek improvements in the areas of risk assessments, effective
   oversight processes, and training employees with significant security responsibilities.


Results of Review

Access controls to three critical OECA systems (FTTS, SSTS, and ICIS) need improvement.
Inadequate implementation of access controls increases the possibility of valid users not being
able to gain access to these systems in a timely manner should a problem occur. Moreover, these
vulnerabilities increase the potential for unauthorized changes to system data. These weaknesses
occurred because user access lists were either not reconciled or not consistently reconciled.
Specifically:

•	 We found that some regions did not have a backup system administrator/coordinator for
   FTTS and SSTS to ensure the proper administration and availability of the system. A system
   administrator has the ability to grant, remove, or change a user’s access. A system
   coordinator begins the process of facilitating the granting, removing and changing of a user’s

                                                 3
   access. An extended absence of a system administrator/coordinator could delay a valid user
   from being granted access to a system, and could impede the timely removal of users that no
   longer need access. We brought this finding to the attention of the responsible systems
   administrators/coordinators, and they granted system administrator/coordinator access to
   some users who will serve as backups to the primary system administrator/coordinator.

•	 We identified instances where users’ access levels were not appropriate for their job
   functions. For example, we identified three SSTS users with system update ability who no
   longer needed access to the system to perform their duties. Management placed the system
   data in jeopardy of unauthorized alteration by not promptly removing this access. In
   addition, we found an ICIS user who unnecessarily possessed system administrator rights,
   thereby allowing this user to add, delete, or alter data, as well as grant this access to other
   individuals. This user confirmed system administrator rights were no longer needed. System
   administrator access should be strictly controlled and, in this instance, there were an
   adequate number of ICIS users with this ability. After bringing this weakness to the attention
   of OECA officials, the system access levels for the users involved were appropriately
   changed.

These systems contain confidential or enforcement sensitive data that is critical to the
compliance/enforcement activities of the Agency. Therefore, adequate access controls are vital
to ensure the availability and integrity of the compliance and enforcement data in these systems.

The noted weaknesses occurred because the systems’ user access lists either were not reconciled
or were not consistently reconciled, as required by Agency policy. EPA’s Information Security
Manual stipulates that managers of major applications must ensure access controls are reviewed
monthly. In particular, information managers should verify that the system access lists reflect
only valid users and the appropriate levels of access for them to perform their jobs. During our
audit, we found no indication that system administrators conducted reconciliations of the access
listings for FTTS and ICIS. System administrators said they added and removed users based on
an informal process and were not performing any reconciliations. We also found reconciliations
were not occurring consistently with the SSTS access listings; frequent changes in SSTS system
coordinators caused the reconciliation process to be overlooked as new coordinators familiarized
themselves with their duties.


Recommendation

We recommend that OECA’s Director for Compliance:

  1. 	 Reiterate to information managers their responsibilities in EPA’s Information Security
       Manual requiring them to verify (i.e., reconcile) that access lists reflect only valid users
       and the appropriate access levels commensurate with the users’ current job functions.



                                                 4
Agency Comments and OIG Evaluation

In a memorandum dated April 7, 2004, OECA’s Director for the Office of Compliance
responded to our draft report (see Appendix A) and concurred with our recommendation.
However, OECA disagreed with our statement that “Access to three critical OECA systems
(FTTS, SSTS, and ICIS) was not adequately controlled,” and asserted that procedures have been
in place and access to the systems is controlled. We do not dispute that controls exist, but
believe that our statement is accurate because the weaknesses identified were caused by
inadequately implemented controls. Nevertheless, we modified the report so that it cannot be
interpreted that no controls are in place. OECA also stated that these weaknesses were not
identified at Headquarters, and we agree. Although we did not state in our draft report where the
weaknesses were identified, we clarified the report to indicate the weaknesses were found in the
regions.




                                                5
6

     Appendix A




7

8

9

10

                                                                              Appendix B

                                    Distribution

Director, Office of Compliance (221A)

Branch Chief, Data System and Information Management Branch (2222A)

Audit Liaison, Office of Enforcement and Compliance Assurance (2201A)

Comptroller (2731A)

Agency Followup Official (the CFO) (2710A)

Agency Audit Followup Coordinator (2724A)

Associate Administrator for Congressional and Intergovernmental Relations (1301A)

Associate Administrator, Office of Public Affairs (1101A)

Inspector General (2410)





                                             11
